No. 20-683

In the Supreme Court of the United States
DIRK WILKE, in his official capacity as interim State
Health Officer of North Dakota, et al.,
Petitioners,
v.
PHARMACEUTICAL CARE MANAGEMENT ASSOCIATION,
Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Eighth Circuit

BRIEF OF RESPONDENT

MICHAEL B. KIMBERLY
Counsel of Record
MATTHEW A. WARING
SARAH P. HOGARTH
McDermott Will & Emery LLP
500 North Capitol St. NW
Washington, DC 20001
(202) 756-8000
mkimberly@mwe.com
Counsel for Respondent

INTRODUCTION

Petitioners seek further review of the Eighth Circuit’s holding that certain North Dakota statutes regulating pharmacy benefit managers (PBMs) are preempted by ERISA. As originally framed, the petition
presents two questions: The first concerns the substantive scope of ERISA preemption, and the second asks
whether ERISA preemption is facial or as-applied.
In the time since the petition was filed, this Court
decided Rutledge v. Pharmaceutical Care Management
Association, No. 18-540 (Dec. 10, 2020). There, the
Court held that Arkansas’s regulation of “maximum
allowable cost lists” for generic drug reimbursements is
not preempted by ERISA. In so holding, the Court
reversed the Eighth Circuit’s decision in Rutledge and
abrogated Pharmaceutical Care Management Association v. Gerhart, 852 F.3d 722 (8th Cir. 2017).
The Eighth Circuit’s resolution of the first question
presented in this case was premised on Rutledge and
Gerhart. See Pet. App. 6a-9a & n.2. Petitioners therefore have withdrawn (Supp. Br. 6) their request for
plenary review of the second question presented and
ask instead (Supp. Br. 5, 7) only for a GVR in light of
Rutledge. Accord Pet. 3, 13.
Respondent agrees that a GVR is the appropriate
course. To be clear, respondent’s position on the merits
is that the laws challenged here remain preempted by
ERISA even after Rutledge because they regulate
substantive benefit design and intrude upon subject
matters covered by ERISA itself. They are also preempted by Medicare Part D. But because the Eighth
Circuit based its holding below exclusively on the
reasoning of Rutledge and Gerhart, a GVR in light of
this Court’s reversal in Rutledge is warranted.

2
STATEMENT

1. PBMs are third-party administrators that manage prescription-drug benefits for health plans covered
by ERISA, among other benefit plans. Pet. App. 2a.
Most ERISA plans choose to contract with a PBM to
administer prescription drug benefits for their members to avoid the substantial cost of administering prescription-drug benefits themselves. PBMs’ contracts
with health plans are individually negotiated and include a variety of terms and conditions, including provisions relating to levels of access to pharmacy networks, pharmacy credentialing, pharmacy performance
requirements, benefit design, pricing terms, mail-order
and specialty drug requirements, and development and
management of a plan’s formulary. Pet. App. 2a-3a.
PBMs enter into contracts with pharmacies to ensure that their clients’ plan members have the requisite level of access to prescription drugs. PBMs’ contracts with pharmacies typically include provisions
governing such issues as credentialing, accreditation,
and insurance; pharmacy performance standards; services and access requirements; reimbursement methodology; amounts and fees chargeable to plan members; means for providing prescriptions to plan members; and grievance processes, among others.
2. This case concerns North Dakota Century Code
Sections 19-02.1-16.1 (“Section 16.1”) and 19-02.1-16.2
(“Section 16.2”). See Pet. App. 101a-105a.
Both statutes apply to “third-party payer[s]” and
“pharmacy benefits manager[s].” Pet. App. 106a-107a.
Together, they (1) regulate the ways in which plans
and their PBMs are permitted to design and manage
their pharmacy networks; (2) limit the fees that plans
and PBMs may charge to network pharmacies, including performance-related fees; and (3) dictate numerous
disclosure and recordkeeping requirements.

3

3. Respondent filed suit in district court challenging Sections 16.1 and 16.2 as preempted by ERISA and
Medicare Part D. Pet. App. 2a. The parties cross-moved
for summary judgment. Pet. App. 16a. The district
court ruled largely in petitioners’ favor, holding that
just one provision, Section 16.2(2), is preempted by
Medicare Part D. Pet. App. 53a.
The Eighth Circuit affirmed with respect to Section
16.2(2) but otherwise reversed. Pet. App. 1a-10a. Relying on its prior decisions in Rutledge and Gerhart, the
court held that Sections 16.1 and 16.2 have an impermissible “reference to” ERISA plans because the laws’
“definitions of and references to ‘pharmacy benefits
manager,’ ‘third-party payer,’ and ‘plan sponsor’ mean
the legislation’s provisions apply to plans ‘subject to
ERISA regulation.’” Pet. App. 7a. The court did not address respondent’s contention that Sections 16.1 and
16.2 are preempted under alternative theories.
The court further concluded that ERISA preempts
Sections 16.1 and 16.2 “in [their] entirety.” Pet. App.
10a n.5. Having so held, it did not pass upon respondent’s argument that Sections 16.1 and 16.2 are
preempted by Medicare Part D. Pet. App. 10a n.5.
ARGUMENT

Petitioners assert that the judgment below should
be vacated and the case remanded to the Eighth Circuit in light of this Court’s decision in Rutledge. Supp.
Br. 5, 7; accord Pet. 3, 13. Respondent agrees that that
is the appropriate course under the circumstances.
The Eighth Circuit’s decision below was based on
Rutledge and Gerhart. Pet. App. 6a-8a. The court
stressed, in particular, that it was “bound by those
panel decisions unless they are abrogated by the Supreme Court.” Pet. App. 7a-8a & n.2. Because this
Court has now abrogated those decisions, the Eighth

4

Circuit should have the opportunity reconsider the
question of ERISA preemption in light of this Court’s
most recent guidance.
Respondent’s position on the merits is that Sections 16.1 and 16.2 remain preempted under ERISA
because, unlike the Arkansas law at issue in Rutledge,
they regulate substantive benefit design and intrude
upon subject matters covered by ERISA itself. But the
Eighth Circuit did not reach those arguments in light
of its conclusion that Rutledge and Gerhart dictated
the outcome on alternative grounds. The court also did
not reach respondent’s parallel argument that Sections
16.1 and 16.2 are preempted by Medicare Part D. A
GVR would give the Eighth Circuit an opportunity to
address the full range of respondent’s arguments concerning express preemption under both statutes.
CONCLUSION

The Court should grant the petition, vacate the
judgment of the court of appeals, and remand for further proceedings in light of the Court’s decision in
Rutledge.
Respectfully submitted.
MICHAEL B. KIMBERLY
Counsel of Record
MATTHEW A. WARING
SARAH P. HOGARTH
McDermott Will & Emery LLP
500 North Capitol St. NW
Washington, DC 20001
(202) 756-8000
mkimberly@mwe.com

